!.*:> f • '

No.
SupreSicSUrtTusFl LED

AUG 2 6 2021
IN THE

^22§opihecleRK

SUPREME COURT OF THE UNITED STATES

RICHARD BOYLE

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

CIRC UIT

THE UNITED STATES COURT OF APPEALS FOR THE THIRD
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RICHARD BOYLE

9

DOC # HR8086

(Your Name)
SCI-PHOEHIX
P.O.

BOX 244

(Address)
COLLEGEVILLE,

PA 19426

(City, State, Zip Code)
N/A

(Phone Number)

QUESTION-PRESENTED
Petitoner alleged that the district court failed to follow
Supreme Court precedent in the admission of evidence pursuant to
Federal Rule of Evidence 404(b), resulting in due process
violation. Petitioner was convicted of eleven bank robberies,
that were committed over the course of four years, without any
direct evidence or witness testimony connecting him to the
robberies. In finding no error, the Third Circuit relied upon the
Government's statement of the facts on direct appeal, but
significantly misstated even those slanted versions of the facts,
rejecting vertical stare decisis. This case thus presents the
following question:
Whether the federal courts are free to withdraw the
protection from undue prejudice which emanates from the required
four-step process as set forth in Huddleston v. United States,
485 U.S. 681, 691-92, 108 S.Ct. 1496, 99 L.Ed. 771 (1988) prior
to the admission of a prior conviction, for the same crime as
that being tried, pursuant to Federal Rule of Evidence 404(b)?

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT
I. THE THIRD CIRCUIT'S REJECTION OF THE RULE
404(B) REQUIREMENTS OF HUDDLESTON
WARRANTS THIS COURT'S ATTENTION

7

II. THE DECISION OF THE THIRD CIRCUIT IS IN
CONFLICT WITH EXISTING CIRCUIT PRECEDENT

10

III. THE DECISION OF THE THIRD CIRCUIT CONFLICTS
WITH DECISIONS OF OTHER CIRCUITS

11

CONCLUSION

12

INDEX TO APPENDICES
APPENDIX A-OPINION

1

APPENDIX B - PETITION FOR REHEARING

11

APPENDIX C - DISTRICT COURT JUDGEMENT

13

APPENDIX D - DISTRICT COURT ORDER - RULE 404(b)

14

APPENDIX E - DISTRICT COURT MEMORANDUM - RULE 404(b)

15

APPENDIX F - GOVERNMENT'S MOTION IN LIMINE - RULE 404(b)

27

APPENDIX G - PRETRIAL HEARING - RULE 404(b)

55

APPENDIX H - 3/1/19 TRIAL TRANSCRIPT - RULE 404(b)

59

APPENDIX I - 3/4/19 TRIAL TRANSCRIPT - RULE 404(b)

70

APPENDIX J - 4/25/19 POST-TRIAL TRANSCRIPT - RULE 404(b)

77

APPENDIX K - FEDERAL RULE OF EVIDENCE 404(b)

.

79

TABLE OF AUTHORITIES

CASES

PAGE

Huddleston v. United States, 485 U.S. 681, 691-92 (1988)

7, 9, 10

United States v. Caldwell, 760 F.3d 267 (3d Cir. 2014)

8

United States v. Clay, 667 F.3d 689 (6th Cir. 2012)

11

United States v. Davis, 726 F.3d 434 (3d Cir. 2013)

10

United States v. Hall, 858 F.3d 254 (4th Cir. 2017)

11

United States v. Hans, 738 F.2d 88 (3d Cir. 1984)

10

United States v. Heinrich, 971 F.3d 160 (3d Cir. 2020)

10

United States v. Morena, 547 F.3d 191 (3d Cir. 2008)

10

United States v. Owens, 424 F.3d 649 (7th Cir. 2005)

11

United States v. Sampson, 980 F.2d 883 (3d Cir. 1992)

10

United States v. Smith, 725 F.3d 340 (3d Cir. 2013)

10

STATUTES
18 U.S.C § 2113 (a)

11

2

■ 28 U.S.C.S 1254 (1)

RULES
Federal Rule of Evidence 402

7

Federal Rule of Evidence 403
Federal Rule of Evidence 404

4, 8, 9, 10
4, 5, 6

1, 8, 9, 10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ XJ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ J has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was MARCH 9, 2021________

[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of '
Appeals on the following date: J^ne l, 2021
, and a copy of the
order denying rehearing appears at Appendix __b
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _________________(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____ _ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including___ _
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. CONSTITUTION AMENDMENT V
No person shall be held for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury,
except in cases arises in the land or naval forces, or in the
Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of
life, liberty, or propert, without due process of law; nor shall
private property be taken for public use, without just
compensation.

3

STATEMENT OF THE CASE
Petitioner was convicted of eleven.bank robberies over the
course of four years and sentenced to seventy-one (71) years in
prison. App.13. The conviction was affirmed on direct appeal in
an unpublished decision by the Third Circuit Court of Appeals.
App.l. Petitioner filed a petition for rehearing which was denied'
•by the Court. App.ll.
Prior to trial, the Government filed a motion in limine
seeking to introduce evidence of petitioner's 2008 state
conviction for robbery and any information provided to the parole
. board or parole officer under Federal Rule of Evidence 404(b).
App.27. The Government's motion listed all nine of the Rule
404(b) purposes for the evidence and conceded that there was a
"high risk" that the jury would use the evidence for propensity.
App.52.
At the pretrial motion hearing, the district court summarily
ruled that the inherently prejudicial Rule 404(b) evidence was
admissible, without any discussion or argument by defense
counsel, or the Government. The Government did not provide the
district court with any facts or circumstances of -the prior
conviction which would enable the court to balance the probative
value of the evidence against its prejudicial effect. Defense
counsel objected, the district, court replied, "it may be that you
can revisit the issue of an over-the-top kind of prejudice
problem." App.57.
After voir dire, defense counsel requested that the Rule
404(b) evidence be held for rebuttal and motioned the court for
an analysis of the evidence pursuant to Federal Rule of Evidence
403 The court did not respond, and the reason for denying the
motion is not apparent from the record. App.68.
The record reflects that the district court abdicated the
admission of the Rule 404(b) evidence, and remained disengaged
throughout the proceedings. The Court was not aware that the Rule
404(b) evidence was admitted without any opinion by the Court,
and with only the Court's signature on the motion's order page,
which contained multiple material Scrivener errors. App.14,
App.27, App.60. The district court instructed the Government and
defense counsel to collaborate on the purposes for the evidence,
then, "agree on what the issue is that it's germane to and then
4

I'll be happy to incorporate that in a limiting instruction."
App.65.
On the first day of trial, the Government called its first
Rule 404(b) witness, the arresting officer from 2008. Defense
counsel requested a sidebar to notify the court, who was unaware,
and had to read the limiting instructions to the jury. App.70.
The officer testified that defendant's face was never covered,
and read the defendant's statement, from 2008, accepting
responsibility and expressing remorse. App.74.
The district court interupted the officer's testimony and
called counsel to sidebar. The district court pressed the
prosecutor to clearly articulate how the evidence tended to
establish a material fact at issue in the case. The prosecutor
equivocated and the district court replied, "I'd like to see
something that's more similar to justify the 404(b)." App.73.
The 404(b) witness's testimony was presented to the jury
without explanation, context, reason, or relevance to the
purposes that the jury was instructed to use it for: state of
mind, knowledge, or intent, or acted with a method of operating
that demonstrates some sort of unique pattern, and did not commit
these acts for which he is on trial here by accident or mistake.
App.22. These purposes were not at issue , in this case. The facts
and circumstances of the witness's testimony were not relevant to
any Rule 404(b) purpose. At the close of the witness's testimony,
defense counsel made a motion to strike. The district court did
not rule, saying, "I mean, this is all a work in progress as we
say. "
The next Rule 404(b) witness was the defendant's parole
officer whose testimony was not relevant to any of the purposes
in the jury instructions.
The district court permitted the Government to introduce
evidence to the jury that the defendant had committed a felony
before, had pled guilty, then went to prison. The jury heard
testimony that when the defendant was released from prison he had
difficulty finding a job, and suffered financial difficulties.
This was all before the Government presented its case for the
crimes charged in the indictment.
The Government called a total of seventy witnesses.
5

Twenty-two of them were eyewitnesses. None of them identified the
defendant. The Government presented no direct evidence or witness
testimony linking the defendant to the robberies during the
trial. There was no fingerprint or DNA evidence, and there was no
evidence that petitioner ever owned or used any of the items seen
in the surveillance videos of the robberies presented to the
jury.
Petitioner testified in his own defense at the pre-trial
hearing, and at trial, and that testimony negated the
circumstantial evidence the Government contended supported his
guilt. Petitioner presented over 1200 pieces of documentary
evidence which corroborated his testimony.
At the post-trial motion hearing, the district court
referred to the prosecutor, Robert Livermore, as the "air traffic
controller" for the Rule 404(b) evidence. App.77. The district
court addressed petitioner and told him that they had held back
even more 404(b) evidence, but, "it was excluded on the theory
that enough was enough." The Court recalled, "being somewhat
stingy in terms of allowing any of it in." App.78.

6

REASONS FOR GRANTING THE PETITION
I. THE THIRD CIRCUIT'S REJECTION OF THE RULE
404 (B) ADMISSION REQUIREMENTS OF HUDDLESTON
WARRANTS THIS COURT'S ATTENTION
The Third Circuit's opinion missapprehended the Huddleston
v. United States, 485 U.S. 681, 691-92, 99 L.Ed. 2d 771, 108
S.Ct. 1496 (1988) directives for the admissibilty of evidence of
prior bad acts pursuant to Federal Rule of Evidence 404(b), in
three important ways. First, the Court flagrantly misstated the
record. It stated, "the Government used evidence... for proper
purposes, such as motive, preparation, and identity." App.4.
However, the Rule 404(b)(2) purposes the Government used the
evidence for at trial were: state of mind, knowledge, or intent,
or acted with a method of operating that demonstrates some sort
of unique pattern, and did not commit these acts for which he is
on trial here by accident or mistake. App.22. Misstating the
record again, the Court said, "the Government explained that he
used many of the same techniques... he always covered his face,
and left his mobile phone at home." App.5. This is pure ipse
dixit. The Government's 404(b) witness testified at trial that
his face was never covered, and the Government's photograph
corroborated his testimony. App.74. The Memorandum of Law the
district court filed after trial, conceded that the Rule 404(b)
(2) purposes used for the evidence at trial were improper, "the
Court does not believe that these stated purposes are so unique
in the context of this case to have warranted admission of Mr.
Boyle's prior crimes on these bases [sic] alone." App.26.
The second step of this Court's requirements in Huddleston
direct that any Rule 404(b) evidence must first meet the
relevancy requirements of Rule 402 prior to its admission. The
Government, district court, and the Court of Appeals never
explained how the evidence of petitioner's prior conviction for
robbery was relevant in this case. The availability of precedent
that balances the relevance of bad acts evidence and decides to
admit it does not excuse prosecutors or courts from asking in'
each new case whether and how prior bad acts evidence might be
relevant, probative, and fair. Rule 404(b) requires a case-by­
case determination, not a categorical one. The trial judge must
balance the relevance of the proposed use of the evidence to the
case, and the evidence's relevance to that proof, against the
7

high risk that the evidence will also tend to establish bad
character and propensity to commit the charged crime. The record
reveals that the district court did not evaluate the proposed use
of the evidence prior to its introduction, or how the evidence
should work in the mind of a juror to establish the fact the
Government claims to be trying to prove.
The third step under Huddleston requires that the trial
judge make an assessment under Federal Rule of Evidence 403 to
determine whether the probative value of the evidence is
substantially outweighed by its potential for unfair prejudice.
The record is clear and free of any ambiguity. The district court
never evaluated the Rule 404(b) evidence pursuant to Rule 403. At
the start of trial, defense counsel objected to the use of the
highly prejudicial evidence. The district court did not explain
why it was denying defendant's motion under Rule 403, and the
reason for doing so is not otherwise apparent from the record.
App. 68. It is clear that the Court of Appeals here disregarded
Third Circuit precedent which directed that before prior act•
evidence may be admitted under Rule 404(b), district courts are
required to balance the probative value of the proffered evidence
against its prejudicial effect under Federal Rule of Evidence
403. Where the court's reasoning'is not apparent from the record,
the decision will be reversed. See United States v. Caldwell, 760
F.3d 267, 284 (3d Cir. 2014)(emphasis added).
■ The Court of Appeals went on to hold, based on this
recitation and its factual errors discussed above, "On balance,
admitting the evidence was not error." App.5. But this analysis
ignored the fact that the jury convicted without any direct or
testimonial evidence establishing the guilt of the petitioner.
For example, the opinion states, "while the Government never
presented physical evidence or eyewitness testimony connecting
him to these robberies, the circumstantial evidence was more than
adequate." App.9-10. The Court of Appeals disregarded two
eyewitnesses (twenty-two eyewitnesses testified at trial) who saw
the face of the perpetrator, from arm's length, and identified
someone else. During cross-examination, the eyewitness was shown
the photograph of the suspect he identified, with 85% certainty,
after the robbery, and was asked if it resembled the defendant.
He replied, "No, it's not even close." The Court of Appeal's
opinion failed to note the circumstantial evidence it used to
support the inference that established guilt beyond a reasonable
8

doubt for a robbery where it was someone else, and NOT the
defendant, who was identified by the eyewitness to the robbery.
The government's evidence was insufficient to support the
jury's verdict of guilty. The Court of Appeals conceded, in its
opinion, there was no physical evidence or witness testimony
linking petitioner to any of the robberies. There is no
circumstantial evidence that is sufficient to prove guilt beyond
a reasonable doubt, leaving only the highly inflammatory Rule
404(b) evidence. The purposes were improper, the evidence was
irrelevant, and the district court did not perform a Rule 403
balancing of the evidence. Notably, the jury instruction was of
no use correcting these errors.
The highly prejudicial evidence of a prior conviction, over
a decade old, was enough for the jury to convict on all counts,
including money laundering, where there was no evidence
whatsoever put forth by the Government. The opinion flagrantly
misstates the record again, stating that the credit card
company's employee who testified at trial provided "expert
testimony". App.10. The employee was not qualified as an expert,
and testified that there was nothing concealed, that everything
was transparent.
The protection provided by Rule 404(b) was impinged by the
rejection of Supreme Court precedent by the Third Circuit
resulting in the violation of petitioner's rights under the Due
Process Clause of the Fifth Amendment.
These factual issues do not require the attention of this
Court. What does merit review is the emerging practice of the
Third Circuit of ignoring vertical stare decisis and the Federal
Rules of Evidence.
Because the Third Circuit Court of Appeals has truncated the
protections from undue prejudice that come forth from the
requirements in the unanimous decision, Huddleston v. United
States, 485 U.S. 681, 691-92, 99 L.Ed. 2d 771, 108 S.Ct. 1496
(1988), this Court must grant review.

9

II. THE DECISION OF THE THIRD CIRCUIT IS IN
CONFLICT WITH EXISTING CIRCUIT PRECEDENT
In the analogous case of United States v. Hans, 738 F.2d 88
(3d Cir. 1984); the conviction was reversed because the district
court erred in allowing testimony linking defendant to alleged
past and future robberies. In the similar case of United States
v. Morena, 547 F.3d-191 (3d Cir. 2008); the Court held that the
repeated injection of prejudicial evidence into the trial
testimony constituted prosecutorial misconduct resulting in a
denial of due process and that the district court plainly erred
in allowing introduction of the'quantum of this evidence. The
conviction was reversed.
The Court of Appeals disregarded the robust consensus of
cases in the Third Circuit that direct that district courts must
determine that the Rule 404(b) evidence is more probative than
prejudicial under Federal Rule of Evidence 403 prior to its
admission. See United States v. Sampson, 980 F.2d 883 (3d Cir.
1992); a legitimate relevance had not been properly demonstrated
and the record did not show that the district court, conducted the
Rule 403 balancing test. The conviction was reversed. United
States-v. Smith, 725 F.3d 340 (3d Cir. 2013); the conviction was
reversed because the district court's Rule 403 reasoning "is not
apparent from the record." United States v. Davis, 726 F.3d 434
(3d Cir. 2013); prior conviction evidence failed the first three
steps of Huddleston four-part test and "No instruction could have
eliminated the infirmity at the heart of this case: Davis'
convictions were inadmissible for any purpose." The conviction
was vacated. United States v. Heinrich, 971 F.3d 160 (3d Cir.
2020); the appellate court declined to undertake a Rule 403
analysis,,and instead remanded, because the record lacked any
meaningful discussion by the district court of Rule 403 and
application of its balancing test.
'These cases illustrate the fact that the Third Circuit Court
of Appeals is out of step with this Court, and its own precedent,
in its consideration of the Huddleston v. United States, 485 U.S.
681, 691-92, 99 L.Ed. 2d 771, 108 S.Ct. 1496 (1988) four-step
process. Certiorari should be granted to correct this error.

10

III. THE DECISION OF THE THIRD CIRCUIT
CONFLICTS WITH DECISIONS OF OTHER CIRCUITS
In the closely analogous case of United States v. Owens, 424
F.3d 649 (7th Cir. 2005); the Court confronted a situation where
the government admitted evidence of a prior uncharged bank
robbery to prove intent. 18 U.S.C. § 2113(a) is a general intent
crime so proof of intent was not necessary. The appellate court
found that admission of prior uncharged bank robbery was improper
under Federal Rule of Evidence 403. The conviction was vacated.
See also United States v. . Hall, 858 F.3d 254 (4th Cir. 2017);
there was no evidence linking defendant to the charged crimes, no
evidence proffered by the Government connecting prior, conviction
to the charged crimes, and limiting instruction was of no use if
the evidence was inadmissible. The conviction was vacated. United
States v. Clay, 667 F.3d 689 (6th Cir. 2012); the prior bad act
evidence was not admissible for a permissible 404(b) purpose, the
evidence was so unrelated to the charged crime that it created
too much of a ribk. The convictions were reversed.
These cases show that the Third Circuit's decision is in
conflict with other Courts of Appeals on the same issue and it
has sanctioned such a departure by the district court. This Court
should grant Certiorari to correct this miscarriage of justice.

11

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

RICHARD BOYLE

2_6 f Q^02~[
Date

12

